APPENDIX

TABLE OF CONTENTS
Appendix A:
Appendix B:
Appendix C:

Court of appeals opinion,
September 28, 2020 ....................................... 1a
District court order,
November 14, 2018 ...................................... 28a
Court of appeals order denying rehearing,
November 9, 2020 ........................................ 39a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 19-15981
D.C. No. 3:17-cv-00408-MMD-WGC

ALLEN MILLER,
Plaintiff-Appellant,
v.
C.H. ROBINSON WORLDWIDE, INC.; RONEL R.
SINGH; RHEAS TRANS, INC.; KUWAR SINGH,
DBA RT Service,
Defendants-Appellees,
and
COSTCO WHOLESALE CORPORATION; LOTUS
FOODS, INC.; PRIDE INDUSTRIES,
Defendants.

Appeal from the United States District Court for the
District of Nevada
Miranda M. Du, Chief District Judge, Presiding
Argued and Submitted July 8, 2020
Seattle, Washington
Filed: September 28, 2020

(1a)

2a

Before: FERNANDEZ and NGUYEN, Circuit Judges,
and BOLTON, * District Judge.
Opinion by Judge Nguyen;
Partial Concurrence and Partial Dissent by Judge
Fernandez
OPINION
NGUYEN, Circuit Judge.
Allen Miller (“Miller”) suffered serious injuries when
he was struck by a semi-tractor trailer while driving near
Elko, Nevada. Miller sued C.H. Robinson Worldwide, Inc.
(“C.H. Robinson”), the freight broker that arranged for
the trailer to transport goods for Costco Wholesale, Inc.
(“Costco”). Miller alleges that C.H. Robinson negligently
selected an unsafe motor carrier.
The Federal Aviation Administration Authorization
Act of 1994 (the “FAAAA”) preempts state laws that are
“related to a price, route, or service of any . . . broker,”
unless one of the FAAAA’s exceptions applies. The district court found Miller’s claim preempted under the
FAAAA, reasoning that it is “related to” C.H. Robinson’s
services and does not fall within the exception for “the
safety regulatory authority of a State with respect to motor vehicles.”
We agree with the district court that Miller’s claim is
“related to” C.H. Robinson’s services. Brokers arrange
for transportation by motor carrier, and Miller alleges

*
The Honorable Susan R. Bolton, United States District Judge for
the District of Arizona, sitting by designation.

3a
that C.H. Robinson was negligent in performing that service. But we hold that the district court erred in holding
that the safety exception does not apply. In enacting that
exception, Congress intended to preserve the States’
broad power over safety, a power that includes the ability
to regulate conduct not only through legislative and administrative enactments, but also though common-law
damages awards. Miller’s claim also has the requisite
“connection with” motor vehicles because it arises out of a
motor vehicle accident. We therefore reverse and remand.
I. FACTUAL AND PROCEDURAL BACKGROUND
C.H. Robinson is a company that is “regularly engaged in the business of shipping, brokering, and logistics.” C.H. Robinson selected Kuwar Singh d/b/a RT Service (“RT Service”) and/or Rheas Trans, Inc. (“Rheas
Trans”) to transport Costco’s shipment. RT Service and
Rheas Trans are federally licensed motor carriers. The
driver of the semi-tractor trailer, Ronel Singh, was employed by RT Service and/or Rheas Trans at the time of
the collision.
Singh lost control of the trailer while driving in icy conditions on I-80 near Elko, Nevada. The trailer crossed
over the median into oncoming traffic and collided with
Miller’s vehicle, and Miller “became lodged and pinned”
under the trailer. Miller suffered extensive injuries in the
collision, and he is now quadriplegic.
In June 2017, Miller sued, among others, C.H. Robinson, RT Service, Rheas Trans, Singh, and Costco. 1 Thereafter, Miller filed an amended complaint. Relevant here,
the amended complaint alleges that C.H. Robinson
breached its “duty to select a competent contractor to
1

The parties stipulated to Costco’s dismissal in September 2017.

4a
transport” Costco’s load “by retaining incompetent, unfit
or inexperienced contractors or sub-haulers to arrange
and/or take th[e] load.” It alleges that C.H. Robinson
“knew or should have known” of RT Service’s and Rheas
Trans’s “incompetence” because
[T]here were red flags . . . including that [RT Service]
and/or Rheas Trans have a history of safety violations;
over 40% of their trucks have been deemed illegal to
be on the road when stopped for random inspections;
they have been cited numerous times for hours of service violations and false log books; and their percentage of out of service violations is twice that of the national average.
In July 2018, C.H. Robinson moved for judgment on
the pleadings under Federal Rule of Civil Procedure
12(c), arguing that the FAAAA preempts Miller’s negligence claim. The district court granted the motion, concluding that the claim “sets out to reshape the level of service a broker must provide in selecting a motor carrier to
transport property.” For instance, “to avoid negligence liability, a broker would consistently need to inspect each
motor carrier’s background,” and “such additional inspection would result in state law being used to, at least indirectly, regulate the provision of broker services by creating a standard of best practices.” The district court went
on to hold that Miller’s claim does not fall within the exception for “the safety regulatory authority of a State with
respect to motor vehicles.” See 49 U.S.C. § 14501(c)(2)(A).
The court reasoned that this exception does not “permit[]
a private right of action—allowing for Miller to essentially
do the state’s work and enforce the state’s police power.”
The court also found significant the fact the exception “is
silent regarding broker services.”

5a
Thereafter, Miller settled with the remaining defendants. The court entered judgment, and this appeal timely
followed.
II. JURISDICTION AND STANDARDS OF REVIEW
The district court had jurisdiction pursuant to 28
U.S.C. § 1332, and we have jurisdiction pursuant to 28
U.S.C. § 1291. We review questions of preemption de
novo. Cal. Trucking Ass’n v. Su, 903 F.3d 953, 958 (9th
Cir. 2018). We also review de novo an order granting a
Rule 12(c) motion for judgment on the pleadings. Fleming
v. Pickard, 581 F.3d 922, 925 (9th Cir. 2009).
III. DISCUSSION
A. The “Related to” Test for FAAAA Preemption
“In considering the preemptive scope of a statute, congressional intent ‘is the ultimate touchstone.’” Dilts v.
Penske Logistics, LLC, 769 F.3d 637, 642 (9th Cir. 2014)
(quoting Engine Mfrs. Ass’n v. S. Coast Air Quality
Mgmt. Dist., 498 F.3d 1031, 1040 (9th Cir. 2007)). We primarily discern Congress’s intent “from the language of
the pre-emption statute and the statutory framework surrounding it,” but we may also consult “the structure and
purpose of the statute as a whole.” Id. (quoting Medtronic, Inc. v. Lohr, 518 U.S. 470, 486 (1996)). The scope
of a preemption clause is also tempered by “the presumption that Congress does not intend to supplant state law,”
particularly in areas of traditional state regulation. Id. at
642–43. We therefore presume that Congress has not
preempted the “historic police powers of the States . . . unless that was the clear and manifest purpose of Congress.”
Cal. Tow Truck Ass’n v. City & County of San Francisco,
807 F.3d 1008, 1019 (9th Cir. 2015) (quoting City of Columbus v. Ours Garage & Wrecker Serv., Inc., 536 U.S.
424, 438 (2002)).

6a
The FAAAA provides, in relevant part:
(1) General rule.—Except as provided in paragraphs
(2) and (3), a State, political subdivision of a State, or
political authority of 2 or more States may not enact
or enforce a law, regulation, or other provision having
the force and effect of law related to a price, route, or
service of any motor carrier . . . , broker, or freight forwarder with respect to the transportation of property
(2) Matters not covered.—Paragraph (1)—(A) shall
not restrict the safety regulatory authority of a State
with respect to motor vehicles . . . .
49 U.S.C. § 14501(c).
The phrase “related to” in the FAAAA “embraces
state laws ‘having a connection with or reference to’ . . .
‘rates, routes, or services,’ whether directly or indirectly.”
Dan’s City Used Cars, Inc. v. Pelkey, 569 U.S. 251, 260
(2013) (quoting Rowe v. N.H. Motor Transp. Ass’n, 552
U.S. 364, 370 (2008)). To determine whether a state law
has a “connection with” rates, routes, or services, we “examine the actual or likely effect” of the law. 2 Am. Trucking Ass’ns, Inc. v. City of Los Angeles, 660 F.3d 384, 396
(9th Cir. 2011), rev’d in part on other grounds, 569 U.S.
641 (2013). If, for example, the law “mandates that motor

2
Preemption resulting from “reference to” prices, routes, or services occurs when “a State’s law acts immediately and exclusively
upon” prices, routes, or services, or “where the existence of [a price,
route or service] is essential to the law’s operation.” Air Transp.
Ass’n of Am. v. City & County of San Francisco, 266 F.3d 1064, 1071
(9th Cir. 2001) (alteration in original) (quoting Cal. Div. of Labor
Standards Enf’t v. Dillingham Constr., N.A., Inc., 519 U.S. 316, 325
(1997)). We do not address whether Miller’s negligence claim is
preempted under this separate prong.

7a
carriers [or brokers] provide a particular service to customers, or forbids them to serve certain potential customers, the effect is clear, and the provision is preempted
. . . .” Id. By contrast, state laws that affect prices, routes,
or services “in only a ‘tenuous, remote, or peripheral . . .
manner’ with no significant impact on Congress’s deregulatory objectives” are not preempted. Su, 903 F.3d at 960
(quoting Rowe, 552 U.S. at 371).
In passing the FAAAA, which is modeled on the Airline Deregulation Act of 1978 (the “ADA”), 3 Congress
sought to achieve two broad objectives. Id. First, it sought
to eliminate the competitive advantage air carriers enjoyed relative to motor carriers. Courts had interpreted
the ADA as preempting state regulation of air carriers,
but not motor carriers. Id. Second, it sought to “address
the inefficiencies, lack of innovation, and lack of competition caused by non-uniform regulations of motor carriers.” Id. In particular, Congress was “concerned about
States enacting ‘barriers to entry, tariffs, price regulations, and laws governing the types of commodities that a
carrier could transport.’” 4 Id. at 960–61 (quoting Dilts,
769 F.3d at 644); see H.R. Conf. Rep. 103-677, at 82–88
(1994), reprinted in 1994 U.S.C.C.A.N. 1715, 1754–60
(confirming that in passing the FAAAA, Congress was focused on economic deregulation of the trucking industry).

The ADA provides, in relevant part, that “a State . . . may not enact or enforce a law, regulation, or other provision having the force
and effect of law related to a price, route, or service of an air carrier
that may provide air transportation under this subpart.” 49 U.S.C.
§ 41713(b)(1).
3

4
For an in-depth discussion of the FAAAA’s legislative history, see
Californians For Safe & Competitive Dump Truck Transp. v. Mendonca, 152 F.3d 1184, 1187–88 (9th Cir. 1998).

8a
No circuit court has yet considered an FAAAA
preemption challenge brought by a broker, and district
courts have reached differing conclusions as to whether
negligence claims like Miller’s are “related to” broker services. Compare Scott v. Milosevic, 372 F. Supp. 3d 758,
769–70 (N.D. Iowa 2019) (holding that personal injury
claims alleging negligence are not “related to” broker services), with Loyd v. Salazar, 416 F. Supp. 3d 1290, 1295–
98 (W.D. Okla. 2019) (holding that such claims are “related to” broker services), and Creagan v. Wal-Mart
Transp., LLC, 354 F. Supp. 3d 808, 813 (N.D. Ohio 2018)
(same). District courts are also divided on the question of
whether the safety exception applies in this context. Compare Lopez v. Amazon Logistics, Inc., No. 3:19-CV-2424N, __ F. Supp. 3d __, 2020 WL 2065624, at *6–8 (N.D. Tex.
Apr. 28, 2020) (“[P]ersonal injury tort claims, including a
negligent-hiring claim, are within the scope of section
14501(c)(2)’s exception.”), with Creagan, 354 F. Supp. 3d
at 813–14 (holding that the safety exception does not apply to negligence claims asserted against brokers, including those arising out of personal injuries).
B. Miller’s Negligence Claim Is “Related to” Broker Services
Miller contends that his negligence claim against C.H.
Robinson is not preempted because it is not “meaningfully
distinguish[able]” from three state laws we have held escape preemption under the FAAAA. We therefore begin
our discussion by briefly reviewing those three cases—
Californians For Safe & Competitive Dump Truck
Transportation v. Mendonca, 152 F.3d 1184 (9th Cir.
1998), Dilts v. Penske Logistics, LLC, 769 F.3d 637 (9th
Cir. 2014), and California Trucking Association v. Su,
903 F.3d 953 (9th Cir. 2018).

9a
In Mendonca, we held that the FAAAA does not prohibit California from enforcing its prevailing wage law
(the “CPWL”) against motor carriers. The CPWL requires contractors and subcontractors awarded public
works contracts to pay their workers no less than the prevailing wage in a given locality. See Cal. Lab. Code § 1771.
We reasoned that although the CPWL “in a certain sense
is ‘related to’ [motor carrier] prices, routes and services
. . . the effect is no more than indirect, remote and tenuous,” and it does not “acutely interfer[e] with the forces of
competition.” Mendonca, 152 F.3d at 1189. Then, in Dilts,
we held that California’s meal and rest break laws are not
“related to” motor carrier prices, routes, or services because they “do not set prices, mandate or prohibit certain
routes, or tell motor carriers what services they may or
may not provide, either directly or indirectly.” 769 F.3d at
647. Instead, they are “normal background rules for almost all employers doing business in [California],” and
the fact “motor carriers may have to take [them] into account . . . when allocating resources and scheduling
routes” is insufficient to show that they are preempted.
Id. Most recently, we held that the FAAAA does not
preempt the use of California’s common-law test for determining whether a motor carrier has properly classified
its drivers as independent contractors because it is not
“related to” carrier prices, routes, or services. See Su, 903
F.3d at 957.
In arguing that Mendonca, Dilts, and Su “must control here,” Miller overlooks an important distinction between his claim and the laws at issue in those cases—
namely, the point at which the law affects a broker (or motor carrier’s) business. As we have previously observed:

10a
What matters [for purposes of preemption under the
FAAAA] is not solely that the law is generally applicable, but where in the chain of a motor carrier’s business it is acting to compel a certain result (e.g., consumer or workforce) and what result it is compelling
(e.g., a certain wage, non-discrimination, a specific system of delivery, a specific person to perform the delivery).
Su, 903 F.3d at 966. The wage and hour laws at issue in
Mendonca and Dilts, for example, “[i]n effect . . . compelled new terms in motor carriers’ agreements with their
workers,” but we permitted “California to interfere with
th[at] relationship.” Id. at 963. Miller’s claim, by contrast,
seeks to hold C.H. Robinson liable at the point at which it
provides a “service” to its customers.
Here, as Miller concedes, the “selection of motor carriers is one of the core services of brokers.” 5 See 49 U.S.C.
§ 13102(2) (defining “broker,” as it is used in the FAAAA,
to mean “a person, other than a motor carrier . . . , that as
a principal or agent sells, offers for sale, negotiates for, or
holds itself out by solicitation, advertisement, or otherwise as selling, providing, or arranging for, transportation
by motor carrier for compensation”); see also 49 C.F.R.
§ 371.2 (defining “brokerage service” as “the arranging of
transportation”). Because Miller’s negligence claim seeks
to interfere at the point at which C.H. Robinson “arrang[es] for” transportation by motor carrier, it is directly
“connect[ed] with” broker services in a manner that was
lacking in Mendonca, Dilts, and Su. See Dilts, 769 F.3d at

5
Because C.H. Robinson has not argued that Miller’s claim is “related to” its prices or routes, we only address whether it is “related
to” C.H. Robinson’s services.

11a
649 (observing that state laws have “an impermissible effect” when they “interfer[e] at the point that a carrier provides services to its customers”).
We find Northwest, Inc. v. Ginsberg, 572 U.S. 273
(2014) instructive on this point. There, the Supreme Court
held that the ADA preempted a breach of the implied covenant of good faith and fair dealing claim that stemmed
from an airline terminating the plaintiff from its frequentflyer program. 6 Id. at 284–85. The claim “clearly” had the
forbidden “connection with” air carrier “services, i.e., access to flights and to higher service categories,” as well as
air carrier prices. Id. at 284. In reaching this conclusion,
the Court rejected the plaintiff’s argument that he was
contesting his termination from the program—not his
“access to flights and upgrades”—because it “ignore[d]
[his] reason for seeking reinstatement of his membership,
i.e., to obtain reduced rates and enhanced services.” Id. at
284–85. We have found no reasonable ground for distinguishing Ginsberg from this case: Just as a claim that
seeks reinstatement of frequent-flyer benefits has a forbidden “connection with” air carrier services, a claim that
imposes an obligation on brokers at the point at which
they arrange for transportation by motor carrier has a
“connection with” broker services.
Miller resists this conclusion by arguing that his claim
cannot be preempted because it does not “bind” C.H. Robinson to “specific prices, routes, or services.” We have occasionally suggested that preemption occurs only when a
state law operates in this way. In American Trucking As-

6
Because the FAAAA is modeled on the ADA, “ADA preemption
cases can . . . be consulted to analyze FAAAA preemption.” Su, 903
F.3d at 960.

12a
sociations, for instance, we observed that in a “borderline” case, “the proper inquiry is whether the provision,
directly or indirectly, ‘binds the carrier . . . to a particular
price, route or service . . . .’” 60 F.3d at 397 (quoting Air
Transp. Ass’n of Am. v. City & County of San Francisco,
266 F.3d 1064, 1072 (9th Cir. 2001)); see also Dilts, 769
F.3d at 646 (“[L]aws mandating motor carriers’ use (or
non-use) of particular prices, routes, or services in order
to comply with the law are preempted.”). But even these
cases acknowledged that the scope of FAAAA preemption
is broader than this language suggests. See, e.g., Dilts, 769
F.3d at 647 (describing laws that are preempted under the
FAAAA as those that “directly or indirectly mandate,
prohibit, or otherwise regulate certain prices, routes, or
services” (emphasis added)).
We note also that few common-law claims, if any,
would be preempted if the FAAAA only preempts state
laws that bind brokers to specific prices, routes, or services. As an initial matter, there is no question that common-law claims are within the scope of the preemption
clause. See Ginsberg, 572 U.S. at 284 (“[W]e conclude that
the phrase ‘other provision having the force and effect of
law’ includes common-law claims.”). Yet common-law
claims typically regulate behavior by imposing broad
standards of conduct, not by compelling individuals to engage in (or refrain from engaging in) any specific conduct.
See Medtronic, 518 U.S. at 489 (observing that commonlaw actions enforce “general duties”). A negligence claim,
for example, demands that an individual or entity exercise
ordinary care; it does not require that this standard of
care be satisfied in any particular manner. It therefore
does not make sense in this context to ask whether a claim
“binds” a broker to a particular price, route or service. See
Ginsberg, 572 U.S. at 284–85 (finding the plaintiff’s implied covenant claim preempted not because it bound the

13a
airline to a particular “price” or “service,” but because the
plaintiff brought the claim to reinstate his access to the
“reduced rates and enhanced services” available through
the airline’s frequent-flyer program).
Nor are we persuaded by Miller’s argument that the
reasoning of Charas v. Trans World Airlines, Inc., 160
F.3d 1259 (9th Cir. 1998) (en banc), is applicable here. In
Charas, we considered whether negligence claims stemming from the provision of certain in-flight amenities,
such as luggage handling and beverage services, were
preempted under the ADA. We held that Congress used
the term “service” in the ADA in the “public utility sense”
to refer to “the provision of air transportation to and from
various markets at various times,” but not to refer to the
various amenities airlines offer their customers. Id. at
1266. Contrary to Miller’s suggestion, there is no tension
between Charas’s construction of the term “service” and
our conclusion that when brokers arrange for transportation by motor carrier, they perform a “service” within the
meaning of the FAAAA. Even assuming brokers offer
services analogous to airline amenities, motor-carrier selection is plainly not such a service. It is instead the type
of “public utility” service that falls squarely within the
scope of the FAAAA. 7 See Nat’l Fed’n of the Blind v.
United States, 813 F.3d 718, 727 (9th Cir. 2016) (confirming that the term “service” in the FAAAA is “focused on
‘essential details of the carriage itself’” (quoting Rowe,
552 U.S. at 373)).

7
The FAAAA, like the ADA, does not define the term “service.”
See 49 U.S.C. § 13102.

14a
C. Miller’s Negligence Claim Falls Within the
Safety Exception
Miller contends that even if his negligence claim is “related to” broker services, it is saved from preemption by
the safety exception. This exception provides that the
FAAAA “shall not restrict the safety regulatory authority
of a State with respect to motor vehicles.” 49 U.S.C.
§ 14501(c)(2)(A). In response, C.H. Robinson argues that
“the safety regulatory authority of a State” does not encompass common-law claims, and even assuming that it
does, Miller’s claim is not “with respect to motor vehicles.”
We consider each of these arguments in turn.
1. The “safety regulatory authority of a State”
encompasses common-law tort claims.
The FAAAA does not define the phrase “the safety
regulatory authority of a State,” and we find little else in
the FAAAA’s text that clarifies its scope. In general, however, courts have construed the safety exception broadly.
See Ours Garage, 536 U.S. at 440 (rejecting “the narrowest possible construction of the [safety] exception”); Cal.
Tow Truck Ass’n, 807 F.3d at 1022 (“Case law . . . has on
the whole given a broad construction to the safety regulation exception.” (quoting VRC LLC v. City of Dallas, 460
F.3d 607, 612 (5th Cir. 2006)). With that background in
mind, and in light of the purposes of the FAAAA in general and the safety exception in particular, we conclude
that “the safety regulatory authority of a State” encompasses common-law tort claims.
As discussed above, in passing the FAAAA, Congress
was primarily concerned with the States regulating economic aspects of the trucking industry by, for example,
enacting tariffs, price regulations, and other similar laws.

15a
See Su, 903 F.3d at 960. Congress’s “clear purpose” in enacting the safety exception, then, was “to ensure that its
preemption of States’ economic authority over [that industry] . . . ‘not restrict’” the States’ existing power over
“safety.” Ours Garage, 536 U.S. at 439 (quoting 49 U.S.C.
§ 14501(c)(2)(A)). That power plainly includes the ability
to regulate safety through common-law tort claims. See
Desiano v. Warner-Lambert & Co., 467 F.3d 85, 86 (2d
Cir. 2006) (“Historically, common law liability has formed
the bedrock of state regulation, and common law tort
claims have been described as ‘a critical component of the
States’ traditional ability to protect the health and safety
of their citizens.’” (quoting Cipollone v. Liggett Grp., Inc.,
505 U.S. 504, 544 (1992) (Blackmun, J., concurring in part
and dissenting in part))).
We find nothing in the FAAAA’s legislative history
that suggests Congress intended to eliminate this important component of the States’ power over safety. A
House Conference Report, for instance, notes that a key
interest group abandoned its opposition to the FAAAA
subject to “some conditions that would allow regulatory
protection to continue for non-economic factors, such as
. . . safety,” and that the conferees “attempted to address
these conditions” by carving out the various exceptions in
§ 14501(c)(2). H.R. Conf. Rep. 103-677, at 88. This broad
reference to “safety” cuts against the narrow construction
C.H. Robinson advances. See Apollo Grp., Inc. v. Avnet,
Inc., 58 F.3d 477, 480 (9th Cir. 1995) (observing that
“safety rationale[s] underl[ie] the law of tort”).
We find additional support for our conclusion that “the
safety regulatory authority of a State” encompasses some
common-law claims in American Trucking Associations,
Inc. v. City of Los Angeles, 569 U.S. 641 (2013). There, the
Supreme Court considered whether requirements in a

16a
contract between the City of Los Angeles and trucking
companies providing drayage services at the Port of Los
Angeles (the “Port”) fell within the market-participant exception to preemption. 8 That exception applies where, for
example, a State “act[s] as a private party” by “contracting in a way that the owner of an ordinary commercial enterprise could mimic.” Id. at 651.
The Supreme Court held that the market-participant
doctrine did not apply, and that the requirements at issue
were “preempted as ‘provision[s] having the force and effect of law.’” Id. at 648 (alteration in original) (quoting 49
U.S.C. § 14501(c)(1)). Significantly, although the requirements were contained in contracts between the City and
the trucking companies, a local ordinance authorized the
City to punish violations through criminal sanctions. Id. at
650; see id. at 651 (“Contractual commitments resulting
not from ordinary bargaining . . . , but instead from the
threat of criminal sanctions manifest the government qua
government, performing its prototypical regulatory
role.”). In reaching this conclusion, American Trucking
reasoned generally that the FAAAA’s preemption clause
“targets the State acting as a State, not as any market actor—or otherwise said, the State acting in a regulatory rather than proprietary mode.” Id. at 650. Section
14501(c)(1) therefore “draws a rough line between a government’s exercise of regulatory authority and its own
contract-based participation in a market.” Id. at 649.

8
Two requirements were alleged to fall within that exception in
American Trucking. One required trucking companies operating at
the Port to affix on each of their trucks a placard with a phone number
for reporting environmental and safety concerns, and the other required the companies to submit an off-street parking plan for their
trucks. Am. Trucking Ass’ns, 569 U.S. at 645.

17a
Of course, the Supreme Court made these observations about the States’ “regulatory authority” in the context of clarifying the scope of the FAAAA’s preemption
clause, not the safety exception. However, we think that
what American Trucking said about that authority is relevant to the scope of the exception. In particular, if the
preemption provision targets “a government’s exercise of
regulatory authority,” id., and that provision encompasses common-law claims, see Ginsberg, 572 U.S. at 284,
then surely “the safety regulatory authority of a State”
also includes at least some common-law claims.
A number of other considerations support our interpretation as well. First, if C.H. Robinson were correct
that the exception is limited to positive enactments of law,
tort claims that are “related to” broker prices, routes, or
services might be saved from preemption in states, like
California, that have codified their common law, 9 but
could not possibly be saved from preemption in states that
have not done the same. It seems unlikely that Congress
would have made the availability of this exception dependent on codification, particularly in light of the FAAAA’s
goal of uniformity. Su, 903 F.3d at 960.
Second, while it is possible to construe “the safety regulatory authority of a State” more narrowly, “when the
text of a pre-emption clause is susceptible of more than
one plausible reading, courts ordinarily ‘accept the reading that disfavors pre-emption.’” CTS Corp. v. Waldburger, 573 U.S. 1, 19 (2014) (quoting Altria Grp., Inc. v.
9
“[U]nlike many jurisdictions, California’s general tort law is codified in its civil code.” Ileto v. Glock, Inc., 565 F.3d 1126, 1132–33 (9th
Cir. 2009); see, e.g., Cal. Civ. Code § 1714(a) (“Everyone is responsible, not only for the result of his or her willful acts, but also for an
injury occasioned to another by his or her want of ordinary care or
skill in the management of his or her property or person . . . .”).

18a
Good, 555 U.S. 70, 77 (2008)). Because a narrower construction of this clause would place a large body of state
law beyond the reach of the exception, we find it appropriate to interpret the clause broadly. See id. (describing this
approach as “consistent with both federalism concerns
and the historic primacy of state regulation of matters of
health and safety” (quoting Medtronic, 518 U.S. at 485)).
We do not find any of C.H. Robinson’s counterarguments persuasive. C.H. Robinson first focuses on the precise language the Supreme Court used in Ours Garage to
describe the purpose underlying the safety exception—to
leave intact “the preexisting and traditional state police
power over safety,” 536 U.S. at 439—and argues that because the “police power” may only be exercised by the
state legislatures, the safety exception excludes commonlaw claims. The district court relied on similar reasoning
in finding the exception unavailable. While the “police
power” does generally refer to the States’ power to legislate, 10 we think this argument reads too much into Ours
Garage. At issue in that case were municipal regulations
governing tow truck operations—an undisputed exercise
of the “safety regulatory authority of a State” and of the
“police power.” The Supreme Court therefore had no reason to consider whether the safety exception is broader
than this language suggests. And, as noted, we have found
no indication in the FAAAA’s legislative history that Congress intended to limit the safety exception in this way.

10
See, e.g., Bond v. United States, 572 U.S. 844, 854 (2014) (“The
States have broad authority to enact legislation for the public good—
what we have often called a ‘police power.’”); Budd v. Madigan, 418
F.2d 1032, 1035 (9th Cir. 1969) (“[W]hen the subject lies within the
police power of the state, even debatable questions as to reasonableness are not for the Courts, but for the legislature . . . .”).

19a
Nor are we persuaded by C.H. Robinson’s argument
that Congress must have intended to limit the exception
to legislative and regulatory enactments given how it has
defined “regulatory authority” in other statutes. None of
the statutes C.H. Robinson identifies supplies a general
definition for the term “regulatory authority”; instead, in
each, the term refers to a specific type of agency. 11 These
statutes also undercut C.H. Robinson’s own argument
that “the safety regulatory authority of a State” refers to
the power to enact legislation and regulations since each
refers only to an administrative body. 12
Lastly, C.H. Robinson juxtaposes the safety exception
against the preemption provision, reasoning that Congress intentionally crafted an exception that encompasses
See, e.g., 42 U.S.C. § 6807a(e) (defining “State regulatory authority” as “any State agency which has ratemaking authority with respect to the sale of electric energy by any electric utility” (cross-referencing 16 U.S.C. § 2602(17))); 15 U.S.C. § 7201(1) (“The term ‘appropriate State regulatory authority’ means the State agency or
other authority responsible for the licensure or other regulation of
the practice of accounting in the State . . . .”).
11

C.H. Robinson also contends that the Supreme Court has “consistently distinguished between state law tort claims and state regulation” when analyzing preemption. C.H. Robinson does not, however, explain how this general observation has any bearing on the interpretive question presented here. Nor do any of the cases C.H. Robinson cites assist us. The preemption clause in Sprietsma v. Mercury
Marine, for instance, bears little resemblance to the safety exception.
See 537 U.S. 51, 63 (2002) (holding that 46 U.S.C. § 4306, which prohibits the States from “establish[ing], continu[ing] in effect, or enforc[ing] a law or regulation establishing a . . . safety standard,” does
not encompass common-law claims because “the article ‘a’ before ‘law
or regulation’ implies a discreteness” that is absent from the common
law, and if “law” were interpreted broadly so as to include commonlaw claims, it would render the express reference to “regulation” superfluous).
12

20a
fewer sources of state law than the preemption provision.
Compare 49 U.S.C. § 14501(c)(1) (“[A] State . . . may not
enact or enforce a law, regulation, or other provision having the force and effect of law . . . .” (emphasis added)),
with id. § 14501(c)(2)(A) (“Paragraph (1) . . . shall not restrict the safety regulatory authority of a State . . . .” (emphasis added)). As support for this argument, C.H. Robinson relies on Russello v. United States for the proposition that when “Congress includes particular language in
one section of a statute but omits it in another section of
the same Act, it is generally presumed that Congress acts
intentionally and purposely in the disparate inclusion or
exclusion.” 464 U.S. 16, 23 (1983) (quoting United States
v. Wong Kim Bo, 472 F.2d 720, 722 (5th Cir. 1972)).
The Supreme Court rejected a similar argument in
Ours Garage, and we do so here as well. Ours Garage held
that municipal regulations governing tow truck operations fell within the safety exception even though the exception refers only to the “safety regulatory authority of
a State.” 536 U.S. at 442 (quoting 49 U.S.C.
§ 14501(c)(2)(A)). An argument “of some force” was presented that Congress did not intend this result given the
inclusion of the term “political subdivisions of a State” in
the preemption clause and exclusion of that term from the
safety exception. Id. at 434. But Ours Garage ultimately
determined that the “requisite ‘clear and manifest indication that Congress sought to supplant local authority’”
was lacking for a number of reasons. Id. (quoting Wis.
Pub. Intervenor v. Mortier, 501 U.S. 597, 611 (1991)).
First, the safety exception does not actually “borrow”
any language from the preemption clause. See id. at 435–
36 (“The Russello presumption that the presence of a
phrase in one provision and its absence in another reveals
Congress’ design . . . grows weaker with each difference

21a
in the formulation of the provisions under inspection.”).
Second, section 14501(c)(2) comprises three separate exceptions, and each is stated differently. 13 See id. 435 n.2
(characterizing these differences as “relevant to the interpretive weight that may be attached to the variation
among [the exceptions]”). For these same reasons, the
fact the safety exception concisely refers to “the regulatory authority of a State,” instead of spelling out the various ways the States can exercise that broad power, does
not clearly signal that Congress intended to exclude all
common-law claims from the exception’s reach.

13

Section 14501(c)(2) provides, in full:
(2) Matters not covered.–Paragraph (1)–
(A) shall not restrict the safety regulatory authority of a State
with respect to motor vehicles, the authority of a State to impose
highway route controls or limitations based on the size or weight
of the motor vehicle or the hazardous nature of the cargo, or the
authority of a State to regulate motor carriers with regard to
minimum amounts of financial responsibility relating to insurance requirements and self-insurance authorization;
(B) does not apply to the intrastate transportation of household
goods; and
(C) does not apply to the authority of a State or a political subdivision of a State to enact or enforce a law, regulation, or other
provision relating to the regulation of tow truck operations performed without the prior consent or authorization of the owner or
operator of the motor vehicle.

49 U.S.C. § 14501(c)(2).

22a
2. Negligence claims against brokers that stem
from motor vehicle accidents are “with respect to motor vehicles.”
C.H. Robinson also contends that Miller’s claim does
not fall within the safety exception because it does not satisfy the “with respect to motor vehicles” clause. Specifically, C.H. Robinson argues that because it neither owned
the vehicle nor selected the driver who caused the accident, Miller’s claim is not “with respect to motor vehicles.”
Miller responds that his claim indirectly “regulate[s] the
use of motor vehicles” by “creating incentives for brokers
to select safer carriers . . . and thereby reduce the risk of
trucking accidents.”
We have previously held that the phrase “with respect
to” in the safety exception is synonymous with “relating
to.” Cal. Tow Truck Ass’n, 807 F.3d at 1021 (quoting In re
Plant Insulation Co., 734 F.3d 900, 910 (9th Cir. 2013)).
“Consequently, the FAAAA’s safety exception exempts
from preemption safety regulations that ‘hav[e] a connection with’ motor vehicles,” whether directly or indirectly. 14
Id. at 1021–22 (quoting Dan’s City Used Cars, 569 U.S. at
260). For example, we have held that the safety exception
applies to municipal regulations governing who may ob-

14
Although not argued by the parties, we note that Medtronic, Inc.
v. Lohr, 518 U.S. 470 (1996) gave a narrower construction to the
phrase “with respect to.” See id. at 501 (holding that negligence
claims stemming from the alleged defective manufacturing and labeling of a pacemaker were not preempted by 21 U.S.C. § 360k(a) in part
because the “common-law requirements” at issue “were not specifically developed ‘with respect to’ medical devices” (quoting 21 U.S.C.
§ 360k(a))). We do not find Medtronic’s construction of that phrase
applicable here because we are interpreting a savings clause, not a
preemption clause.

23a
tain a tow truck permit, including a requirement that permit applicants disclose their criminal history. Id. at 1026–
27. In reaching this conclusion, we rejected the argument
that the “valid safety rationales” in this context are limited “to those concerned only with the safe physical operation of the tow trucks themselves.” Id. at 1023. “Rather,
regulations that are ‘genuinely responsive’ to the safety of
other vehicles and individuals involved in the towing process may also be exempted from preemption.”15 Id.
If criminal history disclosure requirements for tow
truck drivers have the requisite “connection with” motor
vehicles, then negligence claims against brokers that arise
out of motor vehicle accidents must as well: Neither directly regulates motor vehicles, but both promote safety
on the road. See id. at 1025 (noting that the safety exception “extends to regulations that protect safety in connection with motor vehicles towed and the individuals who interact with tow truck operators and firms”); see also Ace
Auto Body & Towing, Ltd. v. City of New York, 171 F.3d
765, 774 (2d Cir. 1999) (construing the safety exception as
“encompass[ing] the authority to enact safety regulations
with respect to motor vehicle accidents and break-downs”

A number of our sister circuits have given the safety exception a
similarly broad construction. See, e.g., Cole v. City of Dallas, 314 F.3d
730, 732–35 (5th Cir. 2002) (holding that an ordinance prohibiting individuals convicted of specified criminal offenses from obtaining a tow
truck permit fell within the safety exception because the regulation
has, “at its core, [a] concern for safety”); Ace Auto Body & Towing,
Ltd. v. City of N.Y., 171 F.3d 765, 768–69 (2d Cir. 1999) (rejecting the
argument that the safety exception “extends only to safety regulation
of the mechanical components of motor vehicles . . . and not to municipal management of vehicular accidents”).
15

24a
because such a construction “fully comports with Congress’ purpose to leave intact state and local safety regulatory authority”).
We hold that negligence claims against brokers, to the
extent that they arise out of motor vehicle accidents, have
the requisite “connection with” motor vehicles. Therefore,
the safety exception applies to Miller’s claim against C.H.
Robinson.
REVERSED and REMANDED.

25a
FERNANDEZ, Circuit Judge, concurring in part and
dissenting in part:
I concur in parts I, II and III A, B, C.1 of the majority
opinion. However, I respectfully dissent from part C.2.
Therefore, I would affirm the district court’s decision.
Put succinctly, in my opinion, Miller’s claim does not
come within 49 U.S.C. § 14501(c)(2)(A) (the “safety exception”). The safety exception provides that § 14501(c)(1)
“shall not restrict the safety regulatory authority of a
State with respect to motor vehicles.” 49 U.S.C.
§ 14501(c)(2)(A). While I agree that the safety exception
includes state common law tort claims in principle, in my
opinion, it does not apply to Miller’s negligence claim
against C.H. Robinson because that claim does not
amount to one under “the safety regulatory authority of a
State with respect to motor vehicles.” Id. C.H. Robinson
is a broker, which is “a principal or agent [that] sells, offers for sale, negotiates for, or holds itself out by solicitation, advertisement, or otherwise as selling, providing, or
arranging for, transportation by motor carrier for compensation.” Id. § 13102(2). A motor carrier, in turn, is “a
person providing motor vehicle transportation for compensation.” Id. at (14). And, a broker cannot be a motor
carrier. Id. at (2). Those definitions make clear that as a
broker, C.H. Robinson and the services it provides have
no direct connection to motor vehicles or their drivers.
Any connection is merely indirect—for example, via an intermediary motor carrier.
That attenuated connection is simply too remote for
the safety exception to encompass Miller’s negligence
claim. In holding otherwise, the majority opinion relies on
cases that applied the safety exception to regulations of
the tow truck business, such as those regarding the crim-

26a
inal histories of would-be tow truck drivers 1 and prohibiting certain dangerous conduct by drivers while operating
tow trucks. 2 But in those cases, there was a very close connection to the actual operational safety of motor vehicles.
Indeed, the regulatory requirements regarding towing
were “‘genuinely responsive’ to [a] set of real safety concerns” related to motor vehicles that had motivated the
regulations in the first place. Cal. Tow Truck, 807 F.3d at
1026; see id. at 1023. By contrast, Miller’s claim is not
“with respect to motor vehicles,” within the meaning of
the exception. See § 14501(c)(2)(A). Rather, it is with respect to C.H. Robinson’s broker services, 3 which are only
tangentially “relat[ed] to” 4 or “connect[ed] with” 5 motor
vehicles. In other words, while one can envision an almost
unending series of connections, there comes a point at
which the series must end as a legal matter. See Dan’s
City Used Cars, Inc. v. Pelkey, 569 U.S. 251, 260–61, 133
S. Ct. 1769, 1778, 185 L. Ed. 2d 909 (2013); cf. Elias v. Arthur Andersen & Co. (In re Fin. Corp. of Am. Shareholder
Litig.), 796 F.2d 1126, 1130–31 (9th Cir. 1986); Palsgraf v.
See Cal. Tow Truck Ass’n v. City & County of San Francisco, 807
F.3d 1008, 1026–27 (9th Cir. 2015) (requiring tow truck driver permit
applicants to list all arrests for criminal offenses); Cole v. City of Dallas, 314 F.3d 730, 732, 734–35 (5th Cir. 2002) (per curiam) (prohibiting
those convicted of certain crimes from receiving tow truck driver permits); Ace Auto Body & Towing, Ltd. v. City of New York, 171 F.3d
765, 776 (2d Cir. 1999) (tow truck driver criminal history requirements).
1

Ace Auto Body, 171 F.3d at 769, 774–75 (regulations to curtail tow
truck drivers’ practice of competitively racing to accident scenes).
2

3

See Opinion at 13.

Cal. Tow Truck, 807 F.3d at 1021 (internal quotation marks omitted).
4

5

Id. (internal quotation marks omitted).

27a
Long Island R.R. Co., 162 N.E. 99, 103 (N.Y. 1928) (Andrews, J., dissenting). Miller’s claim is beyond that point.
Allowing it to avoid preemption would inevitably conscript
brokers into a parallel regulatory regime that required
them to evaluate and screen motor carriers (which are already subject to federal registration requirements 6 as
well as state and local regulations) according to the varied
common law mandates of myriad states. It could even require brokers to effectively eliminate some motor carriers
from the transportation market altogether. That is a far
cry from municipal ordinances that require tow truck
driver applicants to disclose their criminal histories, or
that impose a rotational system to discourage competing
tow truck drivers from racing each other to accident
scenes. See Cal. Tow Truck, 807 F.3d at 1020–23, 1026–27;
Cole, 314 F.3d at 732, 734– 35; Ace Auto Body, 171 F.3d at
774–76. The words of the safety exception cannot be
stretched that far.
Despite the broad language that we have used in applying the safety exception to some municipal towing regulations, 7 I would not unmoor that reasoning from the factual circumstances presented there, nor would I transpose it to the distinctly different area of broker services.
Rather, we should hold that Miller’s negligence claim is
expressly preempted and the safety exception is inapplicable.
Thus, while I concur in much of what the majority decides, ultimately I respectfully dissent.

6

See 49 U.S.C. § 13902(a)(1).

7

Cal. Tow Truck, 807 F.3d at 1023.

28a
APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA

Case No. 3:17-cv-00408-MMD-WGC

ALLEN M. MILLER,
Plaintiff,
v.
C.H. ROBINSON WORLDWIDE, INC., RONEL R.
SINGH, RHEAS TRANS, INC., and KUWAR SINGH
dba RT SERVICE,
Defendants.

Filed: November 14, 2018

ORDER
DU, United States District Judge.
I. SUMMARY
In this personal injury case, the dispositive issue before the Court is whether Plaintiff Allen M. Miller’s (“Miller”) common law negligence claim sufficiently relates to
the service Defendant C.H. Robinson Worldwide, Inc.
(“Robinson”) provides as a freight broker, and is thus
preempted under 49 U.S.C. § 14501(c)(1), and does not fall

29a
into the exception to preemption under § 14501(c)(2)(A). 1
Robinson moves for judgment on the pleadings (“Motion”) (ECF No. 59), and argues that Miller’s negligence
claim against it is preempted and does not fall into the
noted exception. (Id.; ECF No. 75 at 11.) The Court
agrees with Robinson and will therefore grant the Motion. 2
II. RELEVANT BACKGROUND
The relevant facts are taken from the operative complaint—Miller’s First Amended Complaint (“FAC”)
(ECF No. 32), unless otherwise indicated.
The action concerns a motor vehicle accident that rendered Miller a quadriplegic. In early December 2016, Defendant Ronel Singh (“Singh”) was operating a commercial semi-tractor trailer on eastbound I-80 in Elko, Nevada. The conditions on the road was snowy and icy, but
Singh drove in an unsafe manner, causing the truck to
overturn and block the westbound lanes. Miller who was
driving westbound could not avoid the semi-tractor trailer
and became lodged and pinned under it. Miller sustained
severe injuries.
Section 14501 is entitled “Federal authority over interstate transportation,” but it is consistently referred to by courts and the parties
here as the Federal Aviation and Administration Authorization Act
(“FAAAA”). A different regulatory scheme called the Interstate
Commerce Termination Act (“ICCTA”) contains the same preemption provision. Compare 49 U.S.C. § 14501(c)(1) (the FAAAA) with 49
U.S.C. § 14501(b)(1) (the ICCTA). Plaintiff concedes that for the purpose of the Court’s analysis, there is no difference between the two,
and “case law referring to one is applicable to the other.” (ECF No.
70 n.3.)
1

2
The Court has considered the parties relevant filings, including
the Motion (ECF No. 59), Miller’s response (ECF No. 70) and Robinson’s reply (ECF No. 75).

30a
At the time of the accident, Singh was acting as Defendant Kuwar Singh dba RT Service’s (“RT Service”)
employee. RT Service is an interstate motor carrier that,
pertinently, Robinson brokered to haul a load on behalf of
shipper Costco Wholesale, Inc (“Costco”).
Miller brings seven claims for relief against the various Defendants. He initially asserted two of these claims
against Robinson—the sixth and seventh claims. (Id. at 6–
7.) However, in his response to the Motion, Miller consented to dismiss the sixth claim, a claim of vicarious liability. (ECF No. 70 at 1.) The remaining claim against
Robinson is a state common law claim for negligence.
Miller alleges Robinson “had a duty to select a competent contractor to transport” the Costco load. (ECF No.
32 at ¶ 45.) Miller claims Robinson breached this duty by
retaining RT Service to take the load. (Id. at ¶ 45.) He further alleges Robinson’s actions or omissions in choosing
RT Service “were reckless and demonstrate a conscious
disregard of or indifference to the life, rights or safety of
. . . Miller and others.” (Id. at ¶ 49.) Foundationally, Miller
asserts that Robinson knew or should have known of RT
Services’ and Singh’s incompetence because
there were red flags about [them]. Including that [RT
Services] have a history of safety violations; over 40%
of [its] trucks have been deemed illegal to be on the
road when stopped for random inspections; [it has]
been cited numerous times for hours of service violations and false log books; and their percentage of out
of service violations is twice that of the national average.
(Id. at ¶ 46–47.) But, it is uncontested that “RT Service
was a properly authorized motor carrier with an active

31a
motor carrier registration at the time of the accident.”
(ECF No. 59 at 8; see generally ECF No. 70.)
III. LEGAL STANDARD
“Judgment on the pleadings is proper when, taking all
the allegations in the pleadings as true, the moving party
is entitled to judgment as a matter of law.” Honey v.
Distelarth, 195 F.3d 531, 532, (9th Cir. 1999). A Fed. R.
Civ. P. 12(c) motion for judgment on the pleadings utilizes
the same standard as a Rule 12(b)(6) motion to dismiss for
failure to state a claim upon which relief can be granted in
that it may only be granted when it is clear to the court
that “no relief could be granted under any set of facts that
could be proven consistent with the allegations.”
McGlinchy v. Shull Chem. Co., 845 F.2d 802 (9th Cir.
1988) (citations omitted). Dismissal under Rule 12(b)(6)
may be based on either the lack of a cognizable legal theory or absence of sufficient facts alleged under a cognizable legal theory. Balistreri v. Pacifica Police Dep’t, 901
F.2d 696, 699 (9th Cir. 1990).
A plaintiff’s complaint must allege facts to state a
claim for relief that is plausible on its face. See Ashcroft v.
Iqbal, 556 U.S. 662, 677, (2009). A claim has “facial plausibility” when the party seeking relief “pleads factual content that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.”
Id. Although the court must accept as true the wellpleaded facts in a complaint, conclusory allegations of law
and unwarranted inferences will not defeat an otherwise
proper [Rule 12(b)(6)] motion. Vasquez v. Los Angeles
County, 487 F.3d 1246, 1249 (9th Cir. 2007); Sprewell v.
Golden State Warriors, 266 F.3d 979, 988 (9th Cir. 2001).
“[A] plaintiff’s obligation to provide the ‘grounds’ of his
‘entitle[ment] to relief’ requires more than labels and conclusions, and a formulaic recitation of the elements of a

32a
cause of action will not do. Factual allegations must be
enough to raise a right to relief above the speculative
level.” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)
(citations and footnote omitted).
IV. DISCUSSION
As indicated, the Court examines whether Miller’s remaining negligence claim against Robinson is preempted
under § 14501(c)(1) of the FAAAA or is saved by the exception to preemption under § 14501(c)(2)(A).
A. Preemption Under § 14501(c)(1)
Robinson argues that Miller’s common law negligence
claim directly concerns the services a freight broker provides in the transportation of property, particularly, the
selection of a motor carrier to transport goods on behalf
of a shipper, and is therefore preempted under the
FAAAA. (ECF No. 59 at 9.) Miller responds that because
his claim concerns personal injury, it is only peripherally
related to Robinson’s services and thus cannot amount to
impermissible state regulation. (ECF No. 70 at 6–11.) The
Court agrees with Robinson.
The FAAAA expressly preempts certain state regulation relating to intrastate motor carriage:
Motor carriers of property.—
(1) General Rule. Except as provided in paragraphs (2)
and (3), a [s]tate . . . may not enact or enforce a law,
regulation, or other provision having the force and effect of law related to a price, route, or service of any
motor carrier . . . or any private motor carrier, broker
or freight forwarder with respect to the transportation
of property.

33a
49 U.S.C. § 14501(c)(1) (emphasis added). Under
§ 14501(c)(1) “[s]tate common law counts as an ‘other provision having the force and effect of law.’” ASARCO LLC
v. England Logistics Inc., 71 F. Supp. 3d 990, 1004 (D.
Ariz. Dec. 23, 2014) (internal quotation and citations omitted). In analyzing the provision, a court may consult air
carrier preemption cases arising under the Airline Deregulation Act (“ADA”) because § 14501’s language closely
resembles the ADA’s language. California Trucking Assoc. v. Su, 903 F.3d 953, 960 (9th Cir. 2018).
The Court’s analysis focuses on the relatedness (or
connection) between the state law provision and what the
FAAAA preempts—state provisions regarding “a price,
route, or service of any motor carrier.” 49 U.S.C.
§ 14501(c)(1); ASARCO, 71 F. Supp. 3d at 1005–06. In undertaking this analysis, the Supreme Court has determined:
(1) that “[s]tate enforcement actions having a connection with, or reference to,” carrier “ ‘rates, routes, or
services’ are pre-empted,” . . .; (2) that such pre-emption may occur even if a state law’s effect on rates,
routes, or services “is only indirect,” . . .; (3) that, in
respect to pre-emption, it makes no difference
whether a state law is “consistent” or “inconsistent”
with federal regulation, . . .; and (4) that pre-emption
occurs at least where state laws have a “significant impact” related to Congress’ deregulatory and preemption-related objectives, . . .
Rowe v. N.H. Motor Transp. Assoc., 552 U.S. 364, 370–71
(2008). But, “the FAAAA does not preempt state laws that
affect a carrier’s prices, routes, or services in only a tenuous, remote, or peripheral . . . manner.” California Trucking Assoc., 903 F.3d at 991. Thus, a court’s task is cen-

34a
tered on the particular claim (or provision) a plaintiff advances and its duty is to discern whether the claim significantly impacts a carrier’s prices, routes, or services and
therefore preempted, or has only a tenuous, remote, or
peripheral connection to the same and thus not
preempted. Id. at 960 (explaining the task); ASARCO, 71
F. Supp. 3d at 1005 (quoting Ko v. Eva Airways Corp., 42
F.Supp.3d 1296, 1302 (C.D. Cal. Feb. 23, 2012)) (“[T]he
Court must look to the nature of the particular claim advanced.”).
In considering § 14501(c)(1)’s preemptive scope, “congressional intent is the ultimate touchstone.” California
Trucking Assoc., 903 F.3d at 959. Specifically, a court considers whether the state provision significantly affects
Congress’s objectives in enacting the FAAAA. Id. at 960–
61 (explaining Congress’ objectives).
Congress’s primary objective was “prevent[ing] states
from undermining federal deregulation of interstate
trucking through a patchwork of state regulations.” Dilts
v. Penske Logistics, LLC, 769 F.3d 637, 644 (9th Cir.
2014). The Ninth Circuit has concluded that “Congress
did not intend to preempt generally applicable state
transportation, safety, welfare, or business rules that do
not otherwise regulate prices, routes or services.” Id. (emphasis added). Instead, the impetus for the FAAAA was
to prevent states “from replacing market forces with their
own, varied commands, like telling carriers they had to
provide services not yet offered in the marketplace.” California Trucking Assoc., 903 F.3d at 961 (citing Dan’s
City Used Cars, Inc. v. Pelkey, 569 U.S. 251, 260 (2013)).
The Court finds Miller’s negligence claim against Robinson is preempted under § 14501(c)(1). “A fair and commonsense construction of the term ‘services’, whether

35a
read broadly or narrowly with regard to a ‘broker’ reasonably leads to no other conclusion than that a broker must
find a reliable carrier to deliver the shipment.” ASARCO,
71 F. Supp. 3d at 1006. Holding Robinson negligent based
on Miller’s allegations would have a significant impact on
Robinson’s services as a broker and the connection with
trucking is not tenuous, remote, or peripheral.
To be clear, Miller’s negligence claim is not a run of
the mill personal injury claim. In essence, Miller’s negligence claim sets out to reshape the level of service a broker must provide in selecting a motor carrier to transport
property. For example, to avoid negligence liability, a broker would consistently need to inspect each motor carrier’s background to find any concerning “red flags,” beyond what appears to be currently required in the marketplace. Surely, such additional inspection would result
in state law being used to, at the least indirectly, regulate
the provision of broker services by creating a standard of
best practices, and ultimately contravening Congress’s
deregulatory objectives in enacting the FAAAA. See
Rowe, 552 U.S. at 370 (noting that preemption may occur
even if the state law’s effect on services “is only indirect”).
It is not hard to foresee the forbidden state regulatory
patchwork noted in Dilts, if Nevada and other states
begin to impose varying standards of reasonableness
based on negligence claims brought against brokers in
providing services. The regulatory effect would also be
particularly economic, threatening to replace market
forces, because, as a matter of commonsense, the level of
service brokers provide directly impacts the amount brokers charge for providing their service.

36a
B.

Section
14501(c)(2)(A)’s
Preemption

Exception

to

Miller appears to alternatively argue that even if his
claim is preempted under § 14501(c)(1), his claims fall
within the exception to preemption under § 14501
(c)(2)(A). (ECF No. 70 at 12–14.) The Court cannot agree.
Section 14501(c)(2)(A) expressly applies to state regulatory authority relative to § 14501(c)(1)’s preemption
provision, providing:
Paragraph (1)—
(A) shall not restrict the safety regulatory authority of
a State with respect to motor vehicles, the authority of
a State to impose highway route controls or limitations
based on the size or weight of the motor vehicle or the
hazardous nature of the cargo, or the authority of a
State to regulate motor carriers with regard to minimum amounts of financial responsibility relating to insurance requirements and self-insurance authorization
The Supreme Court has noted that “[i]t is the expressed intent of § 14501(c)(2)(A) that the preemption
rule of § 14501(c)(1) ‘not restrict’ the existing ‘safety regulatory authority of a [s]tate.” City of Columbus v. Ours
Garage and Wrecker Serv., Inc., 536 U.S. 424, 438 (2002).
The historic police powers of states govern local concerns
such as “safety on municipal streets and roads.” Id. at 440.
But, while it may be argued that Miller’s negligence
claim falls within Nevada’s regulatory authority to police
safety on its streets and roads, through the state’s common law regulation of misconduct, the inclusion is tenuous
at best. Further, there is no indication, either in
§ 14501(c)(2)(A)’s language, or cases binding on this

37a
Court, that the exception permits a private right of action—allowing for Miller to essentially do the state’s work
and enforce the state’s police power. Thus, even though
Miller essentially asserts that Robinson’s negligence in
selecting motor carriers creates an unreasonable safety
risk on Nevada’s roadways by increasing the likelihood of
death or injury and is thus centered on the state’s interest
in maintaining safe roadways, the Court finds he cannot
avail himself of § 14501(c)(2)(A)’s exception. See City of
Columbus, 536 U.S. at 442 (suggesting a balancing between Congress’s intent to further the particular deregulatory goals of § 14501(c)(1) and the specific exception under § 14501(c)(2)(A), by indicating that the exception applies only to state/local regulatory authority:
“§ 14501(c)(2)(A) shields from preemption only ‘safety
regulatory authority’ (and ‘authority of a [s]tate to regulate . . . with regard to minimum amounts of financial responsibility relating to insurance requirements’). Local
regulation of prices, routes, or services of tow trucks that
is not genuinely responsive to safety concerns garners no
exemption from § 14501(c)(1)’s preemption rule”) (emphasis added).
Additionally, unlike in § 14501(c)(1), § 14501(c)(2)(A)’s
language is silent regarding broker services. Compare
§ 14501(c)(1) with § 14501(c)(2)(A). This fact further counsels against reading the exception in § 14501(c)(2)(A) to
extend to broker services not clearly within Nevada’s
“safety regulatory authority” “with respect to motor vehicle.” Id.
In sum, the Court grants Robinson’s Motion (ECF No.
59) because the FAAAA preempts Miller’s remaining
common law negligence claim.

38a
V. CONCLUSION
The Court notes that the parties made several arguments and cited to several cases not discussed above. The
Court has reviewed these arguments and cases and determines that they do not warrant discussion as they do not
affect the outcome of the motion before the Court.
It is therefore ordered that Robinson’s motion for
judgment on the pleadings (ECF No. 59) is granted.
DATED THIS 14th day of November 2018.

39a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 19-15981
D.C. No. 3:17-cv-00408-MMD-WGC
District of Nevada, Reno

ALLEN MILLER,
Plaintiff-Appellant,
v.
C.H. ROBINSON WORLDWIDE, INC.; et al.,
Defendants-Appellees,
and
COSTCO WHOLESALE CORPORATION; et al.,
Defendants.

Filed: November 9, 2020

ORDER

40a
Before: FERNANDEZ and NGUYEN, Circuit Judges,
and BOLTON, * District Judge.
The panel has voted to deny the petition for panel rehearing. Judge Nguyen has voted to deny the petition for
rehearing en banc, and Judges Fernandez and Bolton
have so recommended.
The full court has been advised of the petition for rehearing en banc, and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P. 35.
The petition for panel rehearing and rehearing en
banc is denied.

The Honorable Susan R. Bolton, United States District Judge for
the District of Arizona, sitting by designation.
*

